                                         7568                           Federal Register / Vol. 73, No. 27 / Friday, February 8, 2008 / Notices

                                         material on its Web site prior to the                     Dated: February 3, 2008.                            out and maintains an internal quality
                                         meeting, the background material will                   Randall W. Lutter,                                    assurance system. The system includes
                                         be made publicly available at the                       Deputy Commissioner for Policy.                       quality assessment studies and quality
                                         location of the advisory committee                      [FR Doc. 08–588 Filed 2–5–08; 3:58 pm]                control reviews of OI processes and
                                         meeting, and the background material                    BILLING CODE 4160–01–S
                                                                                                                                                       products to ensure that policies and
                                         will be posted on FDA’s Web site after                                                                        procedures are followed effectively, and
                                         the meeting. Background material is                                                                           are functioning as intended.
                                         available at http://www.fda.gov/ohrms/                  DEPARTMENT OF HEALTH AND                              Section AFJ.10, Office of
                                         dockets/ac/acmenu.htm, click on the                     HUMAN SERVICES                                        Investigations—Organization
                                         year 2008 and scroll down to the                                                                                This office is comprised of the
                                                                                                 Office of the Secretary
                                         appropriate advisory committee link.                                                                          following components:
                                           Procedure: Interested persons may                     Office of Inspector General                             A. Immediate Office
                                         present data, information, or views,                                                                            B. Investigations Division 1
                                         orally or in writing, on issues pending                 Statement of Organization, Functions,                   C. Investigations Division 2
                                         before the committee. Written                           and Delegations of Authority                          Section AFJ.20, Office of
                                         submissions may be made to the contact                    This notice amends Part A (Office of                Investigations—Functions
                                         person on or before February 20, 2008.                  the Secretary), chapter AF of the                     A. Immediate Office of the Deputy
                                         Oral presentations from the public will                 Statement of Organization, Functions,                 Inspector General for Investigations
                                         be scheduled between approximately 1                    and Delegations of Authority for the
                                         p.m. and 2 p.m. on February 28th and                                                                             This office is directed by the Deputy
                                                                                                 Department of Health and Human
                                         11:15 to 12:15 on February 29th. Those                                                                        Inspector General for Investigations
                                                                                                 Services (HHS) to reflect title changes
                                         desiring to make formal oral                                                                                  (DIGI), who is responsible for the
                                                                                                 and responsibilities within the Office of
                                                                                                                                                       functions designated in the law for the
                                         presentations should notify the contact                 Inspector General’s (OIG) Office of                   position Assistant Inspector General for
                                         person and submit a brief statement of                  Investigations (OI). The statement of                 Investigations. The DIGI supervises the
                                         the general nature of the evidence or                   organization, functions, and delegations              Assistant Inspector General for
                                         arguments they wish to present, the                     of authority conforms to and carries out              Investigations Division 1, the Assistant
                                         names and addresses of proposed                         the statutory requirements for operating              Inspector General for Investigations
                                         participants, and an indication of the                  OIG. These organizational changes are                 Division 2, and the Special Advisor who
                                         approximate time requested to make                      primarily to balance investigative                    heads the offices described below.
                                         their presentation on or before February                operations and investigative support                     The DIGI is responsible to the
                                         11, 2008. Time allotted for each                        functions within OI, more clearly                     Inspector General for carrying out the
                                         presentation may be limited. If the                     delineate responsibilities for the                    investigative mission of OIG and for
                                         number of registrants requesting to                     activities within this office, and                    providing and leading general
                                         speak is greater than can be reasonably                 facilitate the most efficient and effective           supervision to the OIG investigative
                                         accommodated during the scheduled                       health care fraud investigations. Chapter             component. The Immediate Office
                                         open public hearing session, FDA may                    AF was last amended on December 21,                   provides broad guidance and instruction
                                                                                                 2006 (71 FR 76676).                                   to staff and serves as the focal point for
                                         conduct a lottery to determine the
                                                                                                   As amended, sections AFJ.00, AFJ.10,                interaction within OIG. The Immediate
                                         speakers for the scheduled open public                  and AFJ.20 of Chapter AF now read as
                                         hearing session. The contact person will                                                                      Office handles all investigative and
                                                                                                 follows:                                              management advisory services for the
                                         notify interested persons regarding their
                                                                                                 *      *     *   *      *                             DIGI, ensuring that the DIGI is briefed
                                         request to speak by February 12, 2008.
                                                                                                 Section AFJ.00, Office of                             on all complex, sensitive, and precedent
                                           Persons attending FDA’s advisory                                                                            setting program and administrative
                                         committee meetings are advised that the                 Investigations—Mission
                                                                                                                                                       issues that may significantly impact on
                                         agency is not responsible for providing                   The Office of Investigations (OI) is                OI management and the investigative
                                         access to electrical outlets.                           responsible for conducting and                        program nationwide. The Special
                                           FDA welcomes the attendance of the                    coordinating investigative activities                 Advisor to the DIGI will supervise the
                                                                                                 related to fraud, waste, abuse, and                   Special Investigations Unit (SIU)
                                         public at its advisory committee
                                                                                                 mismanagement in HHS programs and                     Director and a group of inspectors. The
                                         meetings and will make every effort to
                                                                                                 operations, including wrongdoing by                   SIU will conduct investigations
                                         accommodate persons with physical                       applicants, grantees, and contractors, or
                                         disabilities or special needs. If you                                                                         concerning alleged electronic and
                                                                                                 by HHS employees in the performance                   computer-related violations, as well as
                                         require special accommodations due to                   of their official duties. The office serves           conduct sensitive and complex
                                         a disability, please contact Lee L.                     as OIG liaison to Department of Justice               investigations concerning alleged
                                         Zwanziger at least 7 days in advance of                 on all matters relating to investigations             misconduct by OIG and some
                                         the meeting.                                            of HHS programs and personnel, and                    Department employees. Separately, the
                                           FDA is committed to the orderly                       reports to the Attorney General when                  inspectors who report directly to the
                                         conduct of its advisory committee                       OIG has reasonable grounds to believe                 Special Advisor will conduct the most
                                         meetings. Please visit our Web site at                  Federal criminal law has been violated.               sensitive investigations involving senior
                                         http://www.fda.gov/oc/advisory/                         The office serves as a liaison to CMS,                officials, political appointees, national
                                         default.htm for procedures on public                    State licensing boards, and other outside             security issues, and subjects of high
                                                                                                 organizations and entities with regard to             media interest. Additionally, those
pwalker on PROD1PC71 with NOTICES




                                         conduct during advisory committee
                                         meetings.                                               exclusion, compliance, and enforcement                inspectors will coordinate special
                                                                                                 activities. OI works with other                       projects as assigned by the Special
                                           Notice of this meeting is given under                 investigative agencies and organizations              Advisor and investigations involving
                                         the Federal Advisory Committee Act (5                   on special projects and assignments. In               Congress and top echelon Executive
                                         U.S.C. app. 2).                                         support of its mission, the office carries            Branch Officials.


                                    VerDate Aug<31>2005   17:11 Feb 07, 2008   Jkt 214001   PO 00000   Frm 00063   Fmt 4703   Sfmt 4703   E:\FR\FM\08FEN1.SGM   08FEN1
                                                                        Federal Register / Vol. 73, No. 27 / Friday, February 8, 2008 / Notices                                            7569

                                         B. Investigations Division 1                            HHS officials, and OIG senior managers                with HHS operating divisions, staff
                                            This office is directed by an Assistant              through liaison activity. It is responsible           divisions, OIG counterparts and other
                                         Inspector General for Investigations who                for providing program and policy                      investigative and law enforcement
                                         supervises a headquarters staff and                     direction necessary to accomplish all                 agencies. They prepare investigative and
                                         Special Agents in Charge.                               CMS work requirements, and to direct                  management implication reports.
                                            1. The headquarters staff assists the                other activities in compliance with all                 Dated: February 1, 2008.
                                         Deputy Inspector General for                            legal requirements, OI policies and                   Daniel R. Levinson,
                                         Investigations in establishing                          procedures.                                           Inspector General.
                                                                                                   8. The regional offices within this
                                         investigative priorities, evaluating the                                                                      [FR Doc. E8–2390 Filed 2–7–08; 8:45 am]
                                                                                                 Investigations Division conduct
                                         progress of investigations, and reporting                                                                     BILLING CODE 4152–01–P
                                                                                                 investigations of allegations of fraud,
                                         to the Inspector General on the
                                                                                                 waste, abuse, mismanagement and
                                         effectiveness of investigative efforts. It
                                                                                                 violations of standards of conduct
                                         develops and implements investigative                                                                         DEPARTMENT OF HOMELAND
                                                                                                 within the jurisdiction of OIG in their
                                         techniques, programs, guidelines, and                                                                         SECURITY
                                                                                                 assigned geographic areas. They
                                         policies. It provides programmatic
                                                                                                 coordinate investigations and confer
                                         expertise and issues information on new                                                                       Federal Emergency Management
                                                                                                 with HHS operating divisions, staff
                                         programs, regulations and statutes. It                                                                        Agency
                                                                                                 divisions, OIG counterparts and other
                                         directs and coordinates the regional
                                                                                                 investigative and law enforcement                     Agency Information Collection
                                         investigative offices.
                                            2. The headquarters staff identifies                 agencies. They prepare investigative and              Activities: Submission for OMB
                                         systemic and programmatic                               management improvement reports.                       Review; Comment Request
                                         vulnerabilities in the Department’s                     C. Investigations Division 2                          AGENCY:  Federal Emergency
                                         operations and makes recommendations                      This office is directed by an Assistant             Management Agency, DHS.
                                         for change to the appropriate managers.                 Inspector General for Investigations who              ACTION: Notice; 30-day notice and
                                            3. This office manages the human and                 supervises a headquarters staff and                   request for comments; Collection Type
                                         financial resources of OI, including                    Special Agents in Charge.                             Extension, without change, of a
                                         developing staffing allocation plans and                  1. This office plans, develops,                     currently approved collection, OMB:
                                         issuing policy for coordination and                     implements and evaluates all levels of                1660–0010, Form Number(s): No form
                                         monitoring all budget, staffing and                     employee training for investigators,                  numbers associated with this collection.
                                         recruiting.                                             managers, support staff and other
                                            4. This office coordinates the general               personnel. It oversees a law enforcement              SUMMARY: The Federal Emergency
                                         management processes, and implements                    techniques and equipment program.                     Management Agency, as part of its
                                         policies and procedures published in                      2. The staff provides for the personal              continuing effort to reduce paperwork
                                         the OI Policies and Procedures Manual                   protection of the Secretary, and all                  and respondent burden, invites the
                                         and OI Administrative Manual. It also                   emergency operations preparedness and                 general public and other Federal
                                         coordinates a national inspection                       response.                                             agencies to take this opportunity to
                                         program to ensure compliance with the                     3. The office promotes and                          comment on a proposed continuing
                                         Federal Managers Financial Integrity                    coordinates the adoption of advanced                  information collection. In accordance
                                         Act, the President’s Council on Integrity               information technology forensics in the               with the Paperwork Reduction Act of
                                         and Efficiency, and Attorney General                    prevention and detection of fraud and                 1995, this notice seeks comments
                                         guidelines.                                             provides general and specific                         concerning the information collection
                                            5. This office coordinates with the                  coordination of programs to retrieve and              outlined in 44 CFR part 71, as it pertains
                                         other OIG components in developing                      analyze computer-based forensic                       to application for National Flood
                                         the Work Plan and provides input to the                 evidence.                                             Insurance Program (NFIP) insurance for
                                         Office of Inspector General Semiannual                    4. The office operates a toll-free                  buildings located in Coastal Barrier
                                         Report to the Congress.                                 hotline for OIG to permit individuals to              Resource System (CBRS) communities.
                                            6. This office develops all derivative               call in suspected fraud, waste, or abuse;                Title: Implementation of Coastal
                                         mandatory and permissive program                        refers the calls for appropriate action by            Barrier Resources Act.
                                         exclusions, and ensures enforcement of                  HHS agencies or other OIG components;                    OMB Number: 1660–0010.
                                         exclusions imposed through liaison                      and analyzes the body of calls to                        Abstract: When an application for
                                         with CMS, DOJ and other governmental                    identify trends and patterns of fraud and             flood insurance is submitted for
                                         and private sector entities. It is                      abuse needing attention.                              buildings located in CBRS communities,
                                         responsible for developing, improving                     5. The office maintains an automated                one of the following types of
                                         and maintaining a comprehensive and                     data and management information                       documentation must be submitted as
                                         coordinated OIG database on all OIG                     system used by all OI managers and                    evidence of eligibility: (a) Certification
                                         exclusion actions, and promptly and                     investigators. It provides technical                  from a community official stating the
                                         accurately reports all exclusion actions                expertise on computer applications for                building is not located in a designated
                                         within its authority to the database. It                investigations and coordinates and                    CBRS area, (b) A legally valid building
                                         informs appropriate regulatory agencies,                approves investigative computer                       permit or certification from a
                                         health care providers and the general                   matches with other agencies.                          community official stating that the
                                         public of all OIG exclusion actions, and                  6. The regional offices within this                 building’s start of construction date
                                         is responsible for improving public                     Investigations Division conduct                       preceded the date that the community
                                         access to information on these exclusion                investigations of allegations of fraud,               was identified in the system or c)
pwalker on PROD1PC71 with NOTICES




                                         actions to ensure that excluded                         waste, abuse, mismanagement and                       Certification from the governmental
                                         individuals and entities are effectively                violations of standards of conduct                    body overseeing the area indicating that
                                         barred from program participation.                      within the jurisdiction of OIG in their               the building is used in a manner
                                            7. This office provides advisory                     assigned geographic areas. They                       consistent with the purpose for which
                                         services and assistance to CMS officials,               coordinate investigations and confer                  the area is protected.


                                    VerDate Aug<31>2005   17:11 Feb 07, 2008   Jkt 214001   PO 00000   Frm 00064   Fmt 4703   Sfmt 4703   E:\FR\FM\08FEN1.SGM   08FEN1
